I                                             I

    Department
      -
               of Health and Human Services

            OFFICE OF
       INSPECTOR GENERAL




          MEDICARE LOSSES ON 

             HOSPITAL SALES 





                      JUNE GIBBS BROWN
                      Inspector General

                           JUNE1997
                         OEI-03-9MO170
                      OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95
452, is to protect the integrity of the Department of Health and Human Services
programs as well as the health and welfare of beneficiaries served by them. This
statutory mission is carried out through a nationwide program of audits, investigations,
inspections, sanctions, and fraud alerts. The Inspector General informs the Secretary
of program and management problems and recommends legislative, regulatory, and
operational approaches to correct them.




                       Office of Evaluationand Inspections

The Office of Evaluation and Inspections (OEI) is one of several      components of the 

Office of Inspector General. It conducts short-term management        and program 

evaluations (called inspections) that focus on issues of concern to   the Department, the 

Congress, and the public. The inspection reports provide findings      and 

recommendations on the efficiency, vulnerability, and effectiveness     of departmental 

programs. 


OEI’s Philadelphia Regional Office prepared this report under the direction of 

Robert A. Vito, Regional Inspector General. Principal OEI staff included: 


REGION                                      HEADQUARTERS 


Linda M. Ragone, Project Leader 	           Stuart R. Wright, Program Specialist
                                            Linda Moscoe, Technical Support Staff




To obtain copies of thisreport, please call the PhiladelphiaRegional Office at (800) 531-9562
Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




      MEDICARE LOSSES ON 

         HOSPITAL SALES 





                  JUNE GIBBS BROWN
                  Inspector General

                       JUNE1997
                     OEI-03-96-00170
              EXECUTIVE                         SUMMARY

PURPOSE

To quantify the financial impact of hospital sales on the Medicare program.

BACKGROUND

At the inception of the Medicare program, hospitals were allowed to include the
depreciation of assets as an allowable capital-related cost in their annual Medicare
cost reports. When a hospital undergoes change of ownership for reimbursement
purposes, Medicare guidelines specify that the hospital can receive an adjustment to
the facility’s final allowable or reimbursable costs based on the gain or loss on
depreciated assets at the time of sale. This means that if a hospital’s depreciable
assets (buildings and equipment) are purchased at higher than the net book value or
“value on paper,” Medicare shares in the gain. If the hospital’s depreciable assets are
purchased at less than the net book value, Medicare shares in the loss. Medicare’s
share of the gain or loss is known as the depreciation adjustment.

Recent increases in hospital sales have raised concerns about Medicare’s liability for
depreciation adjustments. Our study was aimed at determining just how much
Medicare had paid for depreciation adjustments in recent years.

We requested information from two main sources: fiscal intermediaries and the
Health Care Financing Administration’s regional offices. The scope of our study was
acute care hospital changes of ownership that met Medicare requirements for a
depreciation adjustment during Fiscal Years 1990 through 1996.

FINDINGS

Medicare lost $223 million and standk to lose another $289 million in depreciation
adjustments for hospitals sold between 1990 and 1996.

Fiscal intermediaries reported $453 million in losses and $56 million in gains for a net
loss of $397 million on 229 hospitals sold between 1990 and 1996. Of the nearly $400
million net loss reported, $223 million was from hospital sales where the final payment
determination has been made. Another $174 million net loss to Medicare has been
reported by hospitals but has yet to be settled by the program. We estimate that
Medicare could pay out $115 million on an additional 88 hospital sales that have
already occurred but for which no financial data was available.




                                            i
Medicare could lose an estimated $53 million in depreciation adjustments for hospital
sales expected in 1997.

Although less than half of the fiscal intermediaries reported being aware of potential
hospital sales in their respective areas, these intermediaries identified 41 expected
hospital sales for 1997. We estimate that the potential liability to Medicare for these
41 sales could reach $53 million.

Net losses reported to the Medicare program have more than quadrupled between 1990
and 1996.

Net losses reported to the program have increased 322 percent from $29 million in
1990 to $122 million in 1996. For every $1 that Medicare shared in gains, it paid out
$8 in losses. While Medicare has shared in the loss for 161 hospital sales, in contrast,
it has shared the gain for only 33 hospital sales. Since 1990, Medicare has shared in
only one gain for every five losses resulting from depreciation adjustments.

Medicare lluly be paying more than it should to hospitals sold at a loss during the
transition period for capital prospective payments.

The loss to the Federal Government from hospital sales may be greater than the half
billion already identified through depreciation adjustments. Medicare may also be
paying out more than it should for hospitals sold at a loss and paid under the capital
prospective payment system. While Medicare recognizes a loss on assets for
depreciation purposes, in most cases it makes no adjustment to a hospital’s capital
payment methodology to account for the new lower value of the hospital.

Losses jkom depreciation adjustments also impact the Medicaid program.

Some Medicaid programs are calculating depreciation adjustments when hospitals are
sold. Intermediaries could provide data on Medicaid depreciation adjustments for
only 10 of the 229 sales transactions with Medicare depreciation adjustments. The
Medicaid depreciation adjustments were all losses ranging from $18,000 to $10 million.
The 10 sales represented a $16 million loss to the respective Medicaid programs.

RECOMMENDATIONS

Substantial amounts of money are being paid and will continue to be paid in the
coming years for an accounting procedure established in the early years of the
program. At the beginning of the 199Os, Medicare moved from cost-based
reimbursement to a prospective payment system. We believe the policy allowing
depreciation adjustments on hospital sales is an unnecessary holdover from the old
cost-based reimbursement system that should be discontinued.




                                             ii
We recommend that the Health Care Financing Administration:

0	     propose legislation to change Section 1861(v)(l)(O) of the Social Security Act
       to eliminate the requirement that Medicare make adjustments for gains or
       losses when hospitals undergo changes of ownership;

0	     propose a similar elimination of depreciation   adjustments on hospital sales in
       the Medicaid program; and

0	     examine options for recalculating capital transition payments to hospitals
       undergoing changes of ownership for reimbursement purposes.

AGENCY COMMENTS

The HCFA concurred with our recommendations.          The agency stated that proposed
legislation entitled “Medicare and Medicaid Fraud, Abuse, and Waste Preventions
Amendments of 1997” (Section 205) would use the net book value as the sales price
for hospitals undergoing a change of ownership. This proposed change would
eliminate the need for a depreciation adjustment. The agency also stated that if
depreciation adjustments were eliminated in the Medicare program this change would
also be reflected in the Medicaid program. After examining its options, HCFA
believes that recalculating the capital transition payments for hospitals undergoing
changes of ownership would be inappropriate and inadvisable at this time. While we
recognize the complexity of the policy and administrative implications identified by
HCFA, we continue to believe that capital payments to hospitals sold at a loss should
be redetermined.




                                           *..
                                           111
                        TABLE                          OF               CONTENTS

                                                                                                                      PAGE 


EXECUTIVESUMMARY                            ..........................................                                    i


INTRODUCTION               .................................................                                               1


FINDINGS       ......................................................                                                     7


 � Medicare’s      loss on depreciation                 adjustments             ...........................               7


 � Loss   on expected sales ...........................................                                                   8


 0 Increase in net losses over time                       ....................................                            9


 0 Prospective capital payments                      .....................................                               10 


 � Medicaid’s     loss on depreciation                  adjustments             ..........................               11 


RECOMMENDATIONS                        ...........................................                                       12 


APPENDICES 


A: Explanation      of Depreciation               Adjustment Calculation                         ..................    A - 1


B: Health Care Financing Administration                             Comments             ....................          B - 1

                          INTRODUCTION

PURPOSE

To quantify the financial impact of hospital sales on the Medicare program.

BACKGROUND

The Hospital Insurance program (Part A) pays for hospital, skilled nursing facility,
home health, and hospice care for Medicare beneficiaries. Payments for inpatient
hospital care comprised 70 percent of the $116 billion in Part A payments in 1995.
Between 1990 and 1994, the number of inpatient short-stay hospital service discharges
increased less than 10 percent; in contrast, expenditures for these services increased
more than 30 percent.

Medicare payments to most short-stay or acute care hospitals are made through a
prospective payment system. For each Part A patient discharge, the hospital is paid
based on a reimbursement equation that includes not only direct patient care costs but
also capital costs such as the updating and acquiring of buildings and equipment.
Prior to the phase-in of a prospective payment system for inpatient capital costs which
began in October 1991, Medicare paid for capital costs on a reasonable cost basis as
determined by a hospital’s annual cost report.

Recent Increases in Hospital Mergers and Sales Activity

In this era of cost-cutting and emphasis on managed care, hospitals are undertaking a
number of consolidation measures to enhance their operations. The Public Citizen
Health Research Group reported in its June 1996 Health Letter that transactions
involving 447 community hospitals had been announced or completed in 1995. These
hospital transactions included mergers, acquisitions, joint ventures, and leasing
agreements.

Medicare’s Handling of Hospital Ownership Changes

The Health Care Financing Administration (HCFA) contracts with 54 fiscal
intermediaries to process Medicare Part A inpatient hospital payments. The HCFA
has provided guidance to these contractors on how to handle changes of hospital
ownership, such as mergers or sales, in section 4500 of the Intermediary Manual.
Guidelines for handling changes of ownership and disposal of assets are also
delineated in sections 130 and 1500 of the Provider Reimbursement Manual.

The fiscal intermediaries are responsible for performing the reimbursement analysis
for a hospital change of ownership. Not all hospitals that undergo some type of
change of ownership will have their reimbursement affected. The intermediary
manual provides examples of what it considers a bona-fide sale or change of


                                            1
ownership for reimbursement purposes. For the most part, a bona-fide sale would be
defined as a sale between two unrelated parties (frequently called “arms-length
transactions”). If a change of ownership is recognized for reimbursement, the fiscal
intermediary will then calculate whether the transaction results in a gain or loss for the
seller, and in what portion of the gain or loss the Medicare program will share.

Gain or Loss on Depreciable Assets at the Bne of Hospital Sale

Hospitals through the years were allowed to include the depreciation of assets as an
allowable capital-related cost in their annual cost reports. When a hospital undergoes
a bona-fide change of ownership for reimbursement purposes, Medicare guidelines
specify that the hospital can receive an adjustment to the facility’s final allowable or
reimbursable costs based on the gain or loss on depreciated assets at the time of sale.
This means that if a hospital’s depreciable assets (buildings and equipment) are
purchased at higher than the net book value or “value on paper,” Medicare shares in
the gain. If the hospital’s depreciable assets are purchased at less than the net book
value, Medicare shares in the loss.

Calculating Medicare3 Share of the Gain or Loss

As part of the audit or settlement of the final cost report, the fiscal intermediaries are 

responsible for reviewing the hospital’s gain or loss on sale for Medicare purposes. 

This settlement occurs after receiving the hospital’s terminating cost report along with 

other legal and financial documents having to do with the sale. The hospital must 

include in this documentation an allocation or distribution of the total sale price 

among all assets being sold. The guidelines allow for an independent appraisal expert 

to perform an appraisal to establish the value of the assets being sold. As outlined in 

section 4505.3 of the intermediary manual, HCFA considers this expert’s membership 

in one of several professional appraiser societies as providing reasonable assurance to 

the intermediary that the “appraisal results have been prepared in accordance with a 

code of ethics and professional standards.” 


Upon establishment of the sale or purchase prices for the depreciable assets, the 

intermediaries compare the purchase price to the current depreciated value of the 

assets (original value less depreciation taken in previous years) to determine the 

amount of gain or loss. Medicare’s share of this gain or loss is determined by the ratio 

of the hospital’s Medicare patient costs to all patient costs. A more detailed 

explanation and examples of depreciation adjustments are provided in Appendix A. 


HCFA Workgroup Reviews Medicare Policies for Changes of Ownership

The HCFA’s Audit & Reimbursement Steering Committee convened an ad hoc
Workgroup to review current guidelines for handling changes of ownership. The
Workgroup consisted of both HCFA and fiscal intermediary staff. Its mission was to
recommend to HCFA ways to “modify, update and expand program instructions
considered necessary in order to provide current and complete guidance to fiscal


                                             2
intermediaries and providers, regarding treatment of change of ownership transactions
to determine appropriate Medicare reimbursement.” The group has transmitted its
proposals back to the Steering Committee and they are now under review by HCFA.

Prior to the release of this report, we provided the Office of the Secretary and HCFA
with the results of our evaluation.

MEiTHODOLOGY

We requested information from two main sources: fiscal intermediaries and HCFA
regional offices. The scope of our evaluation was acute care hospital changes of
ownership (except bankruptcies) that met Medicare requirements for a depreciation
adjustment during Fiscal Years 1990 through 1996. For the remainder of this report,
we will refer to all of these types of ownership changes as hospital sales.

Information Requested jkom Fiscal Intermediaries

We surveyed all current fiscal intermediaries to determine their experiences with
hospital changes of ownership. We requested that each intermediary complete an
overview guide regarding hospitals sales that have transpired under their jurisdiction.
This guide was developed to provide summary data on the number of hospital sale
transactions triggering depreciation adjustments that occurred between 1990 and 1996.
We sent requests to 44 organizations that represent all currently contracted fiscal
intermediaries in the Medicare program. We received some form of response from all
44 organizations. However, several intermediary organizations service multiple
geographic areas and chose to break down their responses by those areas. As a result,
our analysis was conducted on 54 separate fiscal intermediary responses received
between August and December 1996.

In addition to the overview guide, the intermediaries were asked to complete a fact
sheet for each hospital sale where they had received either a terminating cost report
or other financial documents from the hospital. We designed these fact sheets to
collect detailed financial and descriptive data on each hospital sale. Much of the data
requested on the fact sheet could be compiled from the hospital’s terminating cost
report, sale or purchase agreement, and allocation of sales price documentation.

The number of fact sheets returned by each fiscal intermediary and the thoroughness
of data provided on the fact sheets were dependent upon: 1) the volume of hospital
sales within the intermediary’s jurisdiction, and 2) the comprehensiveness and
availability of information provided by hospitals to the intermediaries.  Although we
had follow-up telephone contacts with many fiscal intermediaries’ staff to clarify our
information requests, we received some fact sheets that could not be utilized for
analysis purposes. These fact sheets contained no financial data, were for hospital
transactions that did not trigger a depreciation adjustment calculation, or were for
other than acute care hospitals. The thoroughness of the financial data provided on
the remaining fact sheets varied. However, every fact sheet used for our analysis had


                                           3
to provide, at a minimum, financial data on Medicare’s share of the gain or loss on
depreciable assets. We received 229 fact sheets that met this requirement for analysis.

Information Requested jkom HCFA Regional mces

We surveyed the 10 HCFA regional offices to collect data on hospital sales 

transactions that occurred between Fiscal Year 1990 and the beginning of Fiscal Year 

1997. The purpose of this was twofold -- we wanted to 1) verify the summary hospital 

sales information received from the fiscal intermediaries, and 2) gather regional office 

staff perspectives on the processing of hospital sales and their coordination with the 

intermediaries.   We received responses from all the regional offices between 

November 1996 and January 1997. 


Calculating the Financial Impact of Hospital Sales on the Medicare Program

We used the data reported from the fiscal intermediaries on the fact sheets to
determine the impact of hospital sales with depreciation adjustments. For 171 of the
229 hospital sales with depreciation adjustment data, these adjustments have been
settled and are only subject to change if appealed by the hospital. After settlement of
the cost report, hospitals have 180 days to appeal intermediary determinations.

We identified 14 settled transactions with pending appeals concerning depreciation
adjustments: four of these were for hospitals disputing the amount of gain they must
share with Medicare, nine were for hospitals contesting that the loss shared by
Medicare should be greater, and one hospital with a zero adjustment was arguing that
a loss should have been recognized. We also identified nine transactions where
intermediaries indicated that the opportunity to appeal had not yet expired. We
included the adjustments for these 23 hospitals in our calculations because the figures
do not represent an overstatement of Medicare impact. Indeed, if the appeals are
decided in favor of the hospitals, the loss to Medicare would be even greater.

For 58 hospital sales transactions, formal settlement of the terminating cost reports
has not been completed; therefore, the depreciation adjustments reported are subject
to redetermination by the fiscal intermediaries. These depreciation adjustments have
been aggregated to determine the impact on the program. The monetary impact
associated with these unsettled depreciation adjustments is identified in the findings.

When we refer to the terms “net losses” or “overall impact” in this report, this refers to
the dollar impact that results when aggregated depreciation loss adjustments are
compared to aggregated depreciation gain adjustments. Depreciation adjustments for
hospitals sold at a loss are presented in negative dollar figures in this report, since
these represent Medicare outlays. Depreciation adjustments resulting from gains are
presented as positive dollar figures, since these represent payments to the Medicare
program. Although the hospital sales transactions that resulted in zero adjustments do
not have a financial impact on Medicare, these transactions were included in the
calculation of all hospital sale statistics.


                                            4
Estimating the Financial Impact of Hospital Sales Where Depreciation Adjustments      Have
Yet To Be Reported

To determine the financial impact of sales that have already occurred but for which no 

financial data is currently available, we aggregated the total number of sales 

transactions identified on the intermediary      overview guides. In total, the 

intermediaries   identified 317 hospital sales that would meet Medicare requirements   for 

calculating a depreciation     adjustment.    We subtracted the number of sales with 

information    on depreciation    adjustments  (229) from the 317 total sales. The 

difference between these two numbers (88) equals the number of sales without 

financial data available at this time. 


To estimate the depreciation   adjustments for the 88 sales that have already occurred 

but for which no financial information is available, we utilized the depreciation 

adjustments  reported on the fact sheets. We purposefully decided to include in our 

estimation analysis only the financial data from hospitals where the terminating    cost 

report had been audited and settled by the intermediary.      We believed this would 

provide a more conservative and accurate estimate of average depreciation 

adjustments.   Financial data from 171 settled hospital cost reports was used for this 

analysis. 


We employed a three-step analysis to estimate the net financial impact of hospital 

sales without data. First, we determined      the proportions  of gain, loss, and zero 

adjustments   that resulted from the 171 settled transactions.     Sixty-nine percent of 

settled sales were recognized as losses to the Medicare program.          Seventeen percent 

were gains and another 14 percent were zero adjustments.          These three proportions 

were applied to the 88 sales without data to estimate how many transactions would fall 

into each of the three adjustment categories.      Next, we grouped the 171 settled 

hospital sales by gain, loss, and zero adjustments    and determined     the average or mean 

depreciation   adjustment for each category. We multiplied the mean statistic for each 

category by the number of sales without data we had estimated would fall into each of 

the three categories to quantify overall dollar amounts associated with gains, losses, 

and zero adjustments.      Lastly, we compared the aggregate gain and loss depreciation 

adjustments   to determine a net impact to Medicare. 


Estimating   the Financial Impact of Potential Hospital Sales

To determine the impact on Medicare from potential sales, we totaled the number of
potential sales identified in the intermediary     overview guides. We had asked both the
intermediaries    and HCFA regional offices to provide the number of potential sales
they had reason to believe might occur in 1997; however, the potential sales data from
the fiscal intermediaries     and regional offices did not match. To prevent overinflating
the data by combining or comparing the data, we chose to use only the potential sales
data from the intermediaries.       We selected the intermediary   data since they had a
higher response rate to the potential sales question than the regional offices. The
fiscal intermediaries    identified 41 potential sales. We computed the financial impact


                                              5

of the 41 potential hospital sales identified using the three-step analysis described for
hospital sales where depreciation adjustments have yet to be reported.




                                            6

                                    FINDINGS 


MEDICARE LOST $223 MILLION AND STANDS TO LOSE ANOTHER $289
MILLION IN DEPRECIATION ADJUSTMENTS FOR HOSPITALS SOLD
BETWEEN 1990 AND 1996.

Over the last 7 years, a total    of 317 hospital sales have occurred that met Medicare
requirements for calculating     a depreciation adjustment. These types of sales have
more than doubled between        Fiscal Years 1990 and 1995.’ The chart below provides
a breakdown of the hospital      sales by year.


               Hospital Sales with Depreciation Adjustments
                            FiscalYears 1990 through 1996




Fiscal intermediaries report $453 million in losses and $56 million in gains for a net loss
of $397 million on 229 hospitals sold between I990 and 1996. Medicare has already
paid out $223 million of the net loss.

The fiscal intermediaries provided financial data on 229 hospital sales transactions that
met Medicare requirements for a depreciation adjustment between Fiscal Years 1990
and 1996. Of the nearly $400 million in net losses reported, $223 million was from
171 hospital sales where the final payment determination has been made. The fiscal
intermediaries have audited and settled these hospitals’ terminating cost reports.


     ‘Fiscal year 1995 was the last complete year of hospital sales data collected from
all fiscal intermediaries.
Medicare has already paid out $270 million in losses and received $47 million in gains
for these hospitals.

Another $174 million net loss to Medicare has been reported by hospitals but has yet
to be settled by the program. This figure is based on 58 hospital sales with reported
gain adjustments of $9 million and reported loss adjustments of $183 million. These
adjustments have been calculated and reported by hospitals but the intermediaries
have yet to settle the terminating cost reports.

Medicare could lose an estimated $115 million on another 88 hospital sales for which no
financial data was available.

The fiscal intermediaries reported that there were 317 hospital sales that met
Medicare’s conditions for calculating a depreciation adjustment. However, for 88 of
these transactions, the intermediaries could not provide us with data on the
adjustment. Some of the intermediaries had not yet received any financial information
on the sale from the hospitals. Others explained that they had received the
information but had not yet reviewed it for accuracy.

Using the financial data received from the 171 hospitals with depreciation adjustments
finalized by the intermediaries, we calculated both the proportion of sales with gains
and losses and the average of the resulting depreciation adjustments. Using the
proportions calculated for the settled hospital sales, we estimate that of the 88 sales
without data there would be 15 gain adjustments, 61 loss adjustments, and 12 zero
adjustments. The average depreciation adjustment for settled hospitals sold at a loss
was $2,291,078. For hospitals sold at a gain, the average depreciation adjustment was
$1,629,629. By employing the estimated number of adjustments and the average gain
and loss statistics, we estimate the 88 sales could result in a net loss to Medicare of
$115 million. This figure is an approximation and is furnished to provide only an
estimate of the impact on Medicare. The actual financial impact of these sales will
not be known until the fiscal intermediaries audit the transactions and settle the final
cost reports.

MEDICARE COULD LOSE AN ESTIMATED $53 MILLION IN DEPRECIATION
ADJUSTMENTS FOR HOSPITAL SALES EXPECTED IN 1997.

It does not appear that the rate of hospital sales will significantly decrease in 1997.
Although less than half of the fiscal intermediaries (24 of 54) reported being aware of
potential sales in their respective areas, these intermediaries identified 41 expected
hospital sales for 1997.

Using the proportion of gains and losses and the average adjustments of previously
settled hospital sales, we estimate that the potential liability to Medicare for these 41
sales could reach $53 million. This estimate provides an indication of the possible
impact that upcoming sales could have on Medicare. If all the expected sales do not
occur, this could potentially reduce the estimated loss. Conversely, the impact on the


                                            8
program could be even greater if additional hospitals not identified by the
intermediaries undergo sales in 1997.

NET LOSSES REPORTED TO THE MEDICARE PROGRAM HAVE MORE
THAN QUADRUPLED BETWEEN 1990 AND 1996.

When comparing Medicare’s share of gains and losses on reported hospital sales over
the last 7 years, Medicare has never shown an overall gain in any year. Net losses
reported to the program have increased 322 percent from $29 million in 1990 to $122
million in 1996. For every $1 that Medicare shared in gains, it paid out $8 in losses.
The table below provides the number of hospital sales with gain, loss, and zero
adjustments by fiscal year. It also provides the payments associated with gains and
losses for each year.


  YGII Number        Total Gains   Number      Total Losses    Numberof      Overall Impact
          of Gains                 of LLxses                   Zeru          on Medicare
                                                               Adjustments   Pragtam
  1990        5      $8,118,271       23       -$36,996,112           3      -$28,877,841

  1991        4      $7,401,497       21       -$49,405,907           7      -$42,004,410

  1992        8      $18,882,435      22       -$73,461,361           3      -$54,578,926

  1993        3      $2,771,716       26       -$43,978,492           7      -$41,206,776

  1994        9      $12,778,151      26       -$48,670,697           4      -$35,892,546

  199s        4      $6,054,598       24       -$78,456,929           9      -$72,402,331

  1996        0      $0                19      -$121,904,534          2      -$121,904,534

  Total      33      $56,006,668      161      -$452$X74,032          35     -$396,867,364




FWde Medicare has shared in the loss for 161 hospital sales, in contrast, it has shared the
gain for on& 33 hospital sales

Seventy percent of the depreciation adjustments reported for hospital sales (161 of
229) resulted in losses to the Medicare program. Fourteen percent of sales (33 of
229) resulted in gains to the program. The ratio of Medicare losses to gains based on
the data from the 229 hospital sales is 5 losses for every 1 gain. There were 35
hospital sales where no gain or loss was recognized. The sales price allocated to
depreciable assets for these hospitals was equal to the Medicare net book value of the
assets. Therefore, the depreciation adjustment was zero since no gain or loss on
depreciable assets was established. We have provided examples of how the three
types of adjustments are determined by fiscal intermediaries in Appendix A.




                                               9

MEDICARE MAY BE PAYING MORE THAN IT SHOULD TO HOSPITALS
SOLD AT A LOSS DURING THE TRANSITION PERIOD FOR CAPITAL
PROSPECLlVE PAYMENTS.

The loss to the Federal Government from hospital sales may be greater than the half
billion already identified through depreciation adjustments. Medicare may also be
paying out more than it should for hospitals sold at a loss and paid under the capital
prospective payment system. While Medicare recognizes a loss on assets for
depreciation purposes, in most cases it makes no adjustment to a hospital’s capital
prospective payment to account for the new lower value of the hospital. Under
Medicare’s guidelines, most hospital buyers receive the same capital prospective
payments as the previous owner. Section 2807.9 of the Provider Reimbursement
Manual states that “if there is a change of ownership subsequent to the base period,
the new owner receives capital payments under the same payment methodology and
rates as the previous owner if the change in ownership results in a single surviving
hospital.”

For each Medicare patient discharge, hospitals receive a capital payment based on the
methodology selected for the hospital at the beginning of the capital prospective
payment transition. Hospitals receiving capital prospective payments during the
transition period are paid under two methodologies: “fully prospective” and “hold
harmless.” At the conclusion of a lo-year transition period, all hospitals will receive
payments based solely on the national Federal rate.

Nearly 60 percent of hospital sales reviewed (134 of 229) were reimbursed for capital
costs based on a prospective payment methodology. More than 70 percent of the
hospitals being paid prospectively (95 of 134) were sold at a loss. Twenty-eight
percent of the hospital sales (63 of 229) occurred before Fiscal Year 1992, and thus
were sold prior to the implementation of a prospective payment system for capital
costs.

Of the hospitals which received capital prospective payments and were sold at a loss,
44 percent were paid under the fully prospective methodology. Fully prospective
hospitals receive a combination of Federal and hospital-specific rates during the
transition period. Since the hospital-specific rate is not recalculated when a hospital is
sold at a loss, these hospitals have received and will continue to receive payments
during the transition period based on a rate that was calculated when the hospitals’
depreciable assets had much higher values and thus higher associated depreciation
costs.

Fifty-five percent of hospitals sold at a loss and receiving capital prospective payments
were reimbursed under the hold harmless methodology. Hold harmless hospitals
receive either a blend of old and new capital payments or 100 percent of the Federal
rate depending on which is higher. After a hold harmless hospital is sold, Medicare
does not redetermine the hospital’s payment methodology to establish if the hold
harmless distinction is still necessary. Therefore, the new owner of a hold harmless


                                            10
hospital sold at a loss may continue to receive capital reimbursement   based on a 

payment methodology     that was determined   by the previous owner’s above-average 

capital costs. The Medicare program continues hold harmless payments even though 

the hospital’s current depreciable asset value is now lower. 


We recognize that, without recalculating hospital-specific        rates for each of the 

hospitals sold at a loss, there is no precise means to determine the financial impact on 

the program of continuing to make payments based on the previous owner’s 

methodology     and rates. We also realize that not all hold harmless hospitals would 

lose that distinction, nor would all hospital-specific     rates decrease dramatically if the 

payment methodologies        for hospitals sold at a loss were recalculated based on present 

capital costs. However, the decrease in the value of depreciable           assets and, 

consequently,    the associated depreciation     costs can be significant.   More than half the 

hospitals sold at a loss (53 percent) had the value of their depreciable          assets decrease 

by more than 50 percent.        Thirty-five percent of hospitals sold at a loss had their 

depreciable   asset value drop by more than 70 percent. 


LOSSES FROM DEPRECIATION                 ADJUSTMENTS          ALSO IMPACT THE
MEDICAID PROGRAM.

The Federal Government     does not mandate that State Medicaid programs use specific 

payment methodologies    to determine hospital reimbursement.  However, some State 

programs are calculating depreciation adjustments based on the guidelines established 

for Medicare when hospitals providing care to Medicaid recipients are sold. 


Several of the Medicare fiscal intermediaries        performed  some type of payment or 

audit function for State Medicaid programs.          We asked these intermediaries    if 

depreciation   adjustments    for hospital sales were made by these programs.       Eleven 

intermediaries   indicated that depreciation     adjustments were calculated by State 

Medicaid programs.       These intermediaries     also reported that the Medicaid programs 

used the same rules and procedures         as the Medicare program in calculating 

depreciation   adjustments. 


Intermediaries  could provide data on Medicaid depreciation       adjustments    for only 10 of 

the 229 sales transactions.   All the depreciation  adjustments   resulted in losses to the 

Medicaid program.      The individual hospital adjustments ranged from $18,000 to 

$10 million. These 10 sales represented      a $16 million loss to the respective Medicaid 

programs. 


Since the majority of fiscal intermediaries do not serve as contractors to State 

Medicaid agencies, it is possible that other State Medicaid programs not represented 

in our review also follow Medicare policy and calculate depreciation    adjustments on 

hospital sales. The impact of depreciation   adjustments  on the Medicaid program 

could conceivably be much greater than the $16 million in losses identified from only a 

small number of hospital sales. 





                                                11 

                    RECOMMENDATIONS

The Medicare program has already paid out hundreds of millions of dollars for
depreciation  adjustments  associated with hospital sales. If the activity surrounding
hospital sales continues to increase, the Medicare program could pay out even greater
amounts in the coming years.

We have provided evidence in this report that substantial amounts of money are being
paid and will continue to be paid in the coming years for an accounting procedure
established in the early years of the program.       At the beginning of the 199Os, Medicare
moved from cost-based reimbursement          to a prospective payment system for hospitals.
Since that time, Medicare has shared in only one gain for every five losses resulting
from depreciation     adjustments   on hospital sales. We believe the policy allowing
depreciation   adjustments    on hospital sales is an unnecessary holdover from the old
cost-based reimbursement       system that should be discontinued.

In switching from a cost-based reimbursement       methodology   to the prospective
payment system, the Medicare program recognized the need to constrain rising costs
and promote cost effective decision-making      in hospitals.  Medicare’s sharing in gains
and losses for hospital sales does not advance the goal the program set out to
accomplish when implementing      the prospective payment system.

We recommend      that the Health   Care Financing    Administration:

0	     propose legislation to change Section 1861(v)(l)(O) of the Social Security Act
       to eliminate the requirement  that Medicare make adjustments   for gains or
       losses when hospitals undergo changes of ownership;

0	     propose a similar elimination    of depreciation   adjustments   on hospital   sales in
       the Medicaid program; and

0	     examine options for recalculating    capital transition payments to hospitals
       undergoing changes of ownership      for reimbursement    purposes.

AGENCY COMMENT’S

The HCFA concurred with our recommendations.           The agency stated that proposed 

legislation entitled the “Medicare and Medicaid Fraud, Abuse, and Waste Preventions 

Amendments       of 1997” (Section 205) would use the net book value as the sales price 

for hospitals undergoing a change of ownership.      This proposed change would 

eliminate the need for a depreciation    adjustment.  The agency also stated that if 

depreciation   adjustments were eliminated in the Medicare program this change would 

also be reflected in the Medicaid program. 





                                               12 

The HCFA responded that after examining options for recalculating capital transition 

payments for hospitals undergoing changes of ownership, it believes that recalculating 

payments would be inappropriate      and inadvisable at this time. The agency believes it 

would be contrary to the principle of administrative   finality upon which the capital 

payment system was based. In addition, HCFA stated there would also be the 

potential for loss to the program since both hospitals sold at a gain and a loss would 

have their rates recalculated.   The HCFA also advised that the recalculation    would 

have a limited application period since the transition for capital prospective  payments 

ends in 2001. The full text of HCFA’s comments are provided in Appendix B. 


We appreciate HCFA’s careful consideration      of the issues concerning capital payments 

to hospitals undergoing changes of ownership.      While we recognize the complexity of 

the policy and administrative  implications identified by HCFA, we continue to believe 

that capital payments to hospitals sold at a loss should be redetermined. 





                                             13 

                                APPENDIX                      A

      EXPLANATION          OF DEPRECIATION            ADJUSTMENT         CALCULATION

Before the fiscal intermediary     can verify   a depreciation    adjustment, the hospital being 

sold sends a terminating    cost report that     documents a possible gain, loss, or zero 

adjustment   on depreciable    assets for the    sale. The hospital should also provide the 

hospital sale or purchase agreement, an         allocation of the sales price, and, if necessary, 

an independent   appraisal that determines         the fair market value of the hospital’s 

current assets. The intermediary      reviews     the terminating cost report and the 

additional documentation     to ensure that     they are correct and the calculations are fully 

supported. 


There are several key pieces of information that a fiscal intermediary         must have to 

ensure a correct calculation.   The hospital should provide to the intermediary           the net 

sales price which includes cash and any other considerations         plus any assumed 

liabilities. The allocation of the sales price provided should illustrate the types of 

assets being sold and the portion of the sales price allocated to them. At the present 

time, this allocation can include both depreciable     and non-depreciable      assets such as 

land, buildings, equipment,   accounts receivable, medical records, inventory, and many 

other categories of assets. From this information,      the fiscal intermediary     should be 

able to verify the sales price allocated to depreciable     assets. This figure is then 

compared to the net book value of all depreciable        assets. The net book value is the 

original cost or value of an asset less any depreciation      taken over the life of the asset. 

If the sales price allocated to depreciable   assets is less than the net book value, there 

is a loss recognized on the sale of the assets. If the sales price is greater than the net 

book value of the depreciable    assets, a gain is recognized.     If the sales price allocated 

and the net book value of the depreciable assets are equal, then there is no gain or 

loss and the sale has been an even transaction and zero adjustment           occurs. 


There are limits to the amount of money that Medicare can gain or lose during a 

hospital’s disposal of depreciable assets. The amount of gain is limited to the amount 

of depreciation   for the asset previously included in allowable costs to the Medicare 

program through the years. The amount of loss is limited to the undepreciated        basis 

of the asset (original value less any depreciation  taken through the years) permitted 

under the program. 


Once the overall gain or loss on depreciable     assets is calculated, the intermediary   must 

determine Medicare’s share. This share is determined         by multiplying the gain or loss 

by the hospital’s Medicare utilization during the years that the assets were in use. 

Medicare’s utilization is determined    by comparing Medicare patients’ use of the 

hospital to use by non-Medicare     patients. This can be a complicated     procedure   that 

can require going back through previous cost reports to determine overall Medicare 

utilization. 




                                                A-l
Three examples of depreciation     adjustments    are presented in this appendix.    Example
1 illustrates a depreciation adjustment resulting in a loss. Example 2 provides details
on a gain and Example 3 shows a zero adjustment.           These are simplified examples
meant to illustrate how depreciation     adjustments   are calculated.  The allocation of
sales price can include many types of assets that are not included in these examples.
We do not present the calculation for determining        the Medicare utilization percentage
in our examples.    Instead, we assigned a Medicare utilization rate of 50 percent to
determine Medicare’s share of the hospital sale.



Example 1 - Medicare Loss on Sale


Hospital net facility sales prices:   $10,000,000
(includes cash and any other considerations plus assumed liabilities)

Allocation of the net sales price presented in table below:
(includes both depreciable and non-depreciable assets such as buildings,
equipment, accounts receivable, medical records, inventory, and other assets)

               DESCRIPTION        OF ASSET               DEPRECIABLE              AMOUNT
                                                            ASSET
    Land                                                      No                 $3,ooo,O~
    Inventory                                                 No                 $2,000,000
    Buildings                                                 Yes                $4,ooo,m
    Major Moveable Equipment                                  Yes                $l,~,~
     TOTAL ALLOCATED NET SALES PRICE                                            $10,000,000


Sales price allocated to Medicare allowable depreciable assets:
(determined from allocation above = 4,000,OOO + l,OOO,OOO)



Net book value of depreciable assets at the date of sale:
(determined from cost report: original value less depreciation already taken)



Total amount of gain/loss on sale of depreciable assets:
(sales price less net book value for depreciable assets = 5,000,OOO- 7,000,OOO)



Medicare’s share of the total gain/loss on sale of allowable depreciable assets
(total gain/loss on depreciable assets multiplied by Medicare utilization percentage
including inpatient/outpatient and other components = -2,000,OOOx SO)

LOSS TO MEDICARE            = $ l,OOO,OOO




                                                A-2 

Example 2 - Medicare Gain on Sale


Hospital net facility sales prices:   $lO,OOO,OOO
(includes cash and any other considerations plus assumed liabilities)



Allocation of the net sales price presented in table below:
(includes both depreciable and non-depreciable assets such as buildings,
equipment, accounts receivable, medical records, inventory, and other assets)



              DESCRIPTION        OF ASSET               DEPRECIABLE               AMOUNT
                                                           ASSET
    Land                                                     No                   $1.000.000
                                                                                  .I    I



    Inventory                                                No                   $1,000,000
    Buildings                                                Yes                  $5,ooO,~
    Major Moveable Equipment                                 Yes                  $3,ooo,ooo
     TOTAL ALLOCATED NET SALES PRICE                                            $10,000,000



Sales price allocated to Medicare allowable depreciable assets:                             $8,~,~
(determined from allocation above = 5,000,OOO + 3,000,OOO)



Net book value of depreciable assets at the date of sale:                                   $7,~,~
(determined from cost report: original value less depreciation already taken)



Total amount of gain/loss on sale of depreciable assets:                                    $1,ooo,ooo
(sales price less net book value for depreciable assets = S,OOO,OOO7,000,OOO)
                                                                  -



Medicare’s share of the total gain/loss on sale of allowable depreciable assets             $ 5owoo
(total gain/loss on depreciable assets multiplied by Medicare utilization percentage
including inpatientloutpatient and other components = l,OOO,OOO     x SO)



GAIN TO MEDICARE = $500,000




                                                A-3 

Example 3 - Medicare Zero Adjustment                 on Sale


Hospital net facility sales prices:   $lO,OOO,OOO
(includes cash and any other considerations plus assumed liabilities)



Allocation of the net sales price presented in table below:
(includes both depreciable and non-depreciable assets such as buildings,
equipment, accounts receivable, medical records, inventory, and other assets)



              DESCRIPTION        OF ASSET               REPRECIABLE              AMUUNT
                                                            ASSET
    Land                                                      No                 $2,000,000
    Inventory                                                 No                 $1,000,000
    Buildings                                                Yes                 $4,oW~
    Major Moveable Equipment                                 Yes                 $3,ooo,~
    TOTAL ALLOCATED ‘NET SALES PRICE                                            $10,000,000


Sales price allocated to Medicare allowable depreciable assets:                           $7,~,~
(determined from allocation above = 4,000,OOO + 3,000,OOO)



Net book value of depreciable assets at the date of sale:                                 $7,ooo,~
(determined from cost report: original value less depreciation already taken)



Total amount of gain/loss on sale of depreciable assets:                                  $          0
(sales price less net book value for depreciable assets = 7,000,OOO- 7,000,OOO)



Medicare’s share of the total gain/loss on sale of allowable depreciable assets           $          0
(total gainfloss on depreciable assets multiplied by Medicare utilization percentage
including inpatient/outpatient and other components)



NO GAIN OR LOSS TO MEDICARE = S 0




                                                A-4 

               APPENDIX          B





HEALTH   CARE FINANCING ADMININSTRATION   C0MMEN”‘l-s




                         B-l
        DtPARTMENT   OF HEALTH & HUMAN     SERVfClES                       Hoelth Cam Financinq Admi­



                                                                           mm Adminktntor
                                                                           Washingtan, DC.   20201




DATE:          JIN -3 @g

TO: 	          June Gibbs Brown
               Inspector General

FROM:


SUBJECT 	      Oflciiceofhspect~r General (CM3) Ihfi   Report “Medicare    Losseson
               Hospital Saks,” (OEI43-9600170)




ThankYOU forthe appartnnity
                          io reviewand comment         on this   report.




                                               B-2 

B-3 

Page 2




         B-4 

Page 3




         B-5 

